Departent of Health and Human Servces

       OFFICE OF

  INSPECTOR GENERA





PEER REVIEW ORGANIZATION (PRO)

        CRITIERIA FOR

   CAROTID ENDARTERECTOMY





         AUGUST 199 OEI-t3-91-O150
                 EXECUTIVE SUMMAR
PUROS
Ths report (1) compares Peer Review Organitions ' (PRO) preprocedure review
criteria for caotid endarterectomy and (2) exaes   how these criteria afect denial
rates. A companon report entitled ' 'Preprocdure Review Costs for Caotid
Endarterectomy" (OEI-03- 91-O152) determed that preprocedure review for carotid
endarterectomy was not cost effectie. Ths additional analysis was conducted to
determe if PRO criteria afected these outcomes and whether selected criteria would
result in higher denial rates.

BACKGROUN
Surgeons perform caotid endarterectomy when the carotid arteries leading to    the
brai are blocked and blood flow becomes restrcted. The procedure involves
disecting the neck below the ears , cuttig the caotid arteries open lengthwise , and
removing the accumulted plaque.

The Health Cae Financing Admtration (HCFA) required preprocedure review for
al carotid endarterectomies covered by Medicae until October 1 , 1991 , when all
requied preprocdure reviews were eliated. However, a PRO may request to
continue preprocedure review if it ca prove it is cost effective and would improve
quality of cae.

Under preprocedure review, each PRO developed review criteria and diagnostic
            approvig caotid endaerectomy. Criteria are general standards on
indicators for
which PRO approval is based; diagnostic indicators are measurements or test results
which substatiate the criteria.

There is no national consensus on when carotid endarerectomy is appropriate.
Ongoing National Institutes of Health studies are addressing this issue.

MEODOLOY
We analyzed all PROs ' 1991 preprocedure review criteria for   caotid endarerectomy.
We compared criteria by State and identied the criteria which PROs used most
frequently. We analyzd the number of PRO preprocedure requests and denials by
State, and compared denial rates for carotid endarerectomy among the different
criteria tyes.

FIINGS
      Two-thids of PROs use three priary medical criteria to evaluate carotid
      endarterectomy: syptomatic stenosis , asptomatic stenosis , and stroke
      history.
       Diagnostic indicators used to substatiate medica criteria var from PRO to
       PRO.

       The relationship between PROs ' criteria selection and denial rates is uncertai.
       Statistically, stroke hitory                       rates. However, this impact
                                      had an impact on denial
       should be viewed with caution since it is skewed by one State s high denial rate.

       PROs in eight States accunt for 79 percent of al denial. Yet,      they share the
       same criteria and diagnostic indicators as PROs with no denial.

       Except for patients with severe syptomatic stenosis, the benefits of caotid
       endaerectomy are unclear.
CONCLUSION

Under preprocedure review, the PROs alowed caotid endaerectomy surgery for a
wide range of diagnostic indicators. Diferences among PROs may have resulted from
the lack of objectie medica data   outlg when caotid endaerectomy was
beneficial. It is difcult to develop crteria for preventig unnecess surgery when
there is no clear data on when surgery is necessary or beneficial.

When creatig criteria for surgica procedures where there is little objective medica
data PROs have two choices. They ca alow surgery for a greater range of
diagnostic criteria where the benefits from the surgery have yet to be proven. Or they
ca deny   surgery for al but a very select subset of crteria.

However, there is no perfect choice. Under the fist     option, there may be certai
patients who have surgery that future research proves is unnecess and ineffective.
The second option may exclude patients from havig surgery that is later found to be
effective for their paricular circumstances.



When reviewig the PROs ' criteria in light of the new research on caotid
endarterectomy, most PROs seem to have selected crteria that would fall under the
fist option. As of this time , research has proven caotid endaerectomy beneficial
onl for patients with severe stenosis (70 percent or more). For      th
                                                                    paricular
crterion, the majority of PROs alowed surgery when there was stenosis of 50 percent
or more.

The PROs ' caotid endaerectomy criteria did not have a clear effect on denial rates.
Th conclusion provides further support for HCF A' s decision to eliate the
preprocedure review requirement for carotid endarterectomies.
                                        .. . .                                                                                                   .................
                                 . . . .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .
                                                                                                                                                                    ... .  .. ... ... ......
                                                                                                                                                                        .. .               .. .. .. .
                                                                                                                                                                                               . .  .... ... ..
                                                                                                                                                                                                             .. . ..
                                                                                                                                                                                                                  . ..




                                    TABLE OF CONTENTS

EX S'y                                                           .......................................... i

INODUCfON




FIINGS

  Medca Cr1:ri . .                                                                                                                                                     . . . . . . . . . . . . . 6

  DigI()tic         Indicators                     .............................................. 6


  Crteri      and      Deni Rat: .......................................... 8


  Stat: with        IIer Deni Rate                                                                                                                                                                         .. 12


  Benefits of Surery


CONCLUSION


APPENIX A: Deption of PRO Prprocure Revew                                                                                                        Proc .......... A­
APPENIX B: PRO                                Prprocure Reqests and                                                      Deni                                                                                  B-1


APPENIX C: Matr and Syop of State Crteri . . . . . . . . . . . . . . . . . . .. C­
                            INTRODUCTION

PUROSE
Ths report (1) compares Peer Review Organitions ' (PRO) preprocedure review
criteria for caotid endarterectomy and (2) examies how these criteria affect denial
rates. A companion report entitled ' 'Preprocedure Review Costs for Carotid
Endarterectomy" (OEI- 03- 91- 00152) determed that preprocedure review for carotid
endarterectomy was not cost effective. This additional analysis was conducted to
determne if PRO criteria affected these outcomes and whether selected criteria would
result in higher denial rates.

BACKGROUN
Cati Ar Occlun: Causes Riks an Treatm
As shown in Ilustration I , two internal carotid arteries provide the brain' s primary
blood supply. Individuals often experience atherosclerosis of these arteries as they
age. Atherosclerosis is the accumulation of plaque or lesions inside the arterial walls.


                                Ilustration 1:   Carotid Areries




                                                         Internal carotid artery





                                                         Carotid bifurcation
                 Right commn artery
                                                           eft comn carotid    artery
          . . , _.   ?/.":., \:          ::;:   /:. :?(.:": ::: .   .:   :.:: ' :.   ',' :." ..   .',




Atherosclerosis causes the caotid areries to narow in siz; thi narowng restrict
blood flow to the brain producing potenti health riks (se Ilustrtion II).
Individual usually can tolerate grdua oclusion or blockae of one caotid artery.
However, serious occlusion of one or both areries ca caus masive strokes or
traient ischemic attacks (TI). Tranient                       ishemic attacks are ll mi-strokes . caused
by a temporar decrease            in the brai'       s bloo supply.
                                     Ilustration II: Constrcted Arety

                                         Resultin from Atherosclerosis



                                                                                                                    Normal
                                                                                                                    artery
                                    Constricted                                                                    diameter
                                      artery
                                     diameter




                                  3; '




      Artery                                         Plaque                                         Lumen

       wall                                                                                (clear space)

                                                    lesions





Occlusion of the caotid areries ca be treated surgicay or non-surgicay. Caotid
endaerectomy is the preferred surgica procdure. It involves disectg the neck
below the ear cuttg the caotid areries open lengtwi, and removg the
accmulated plaque. The procdure enta                          considerable riks                         and side effects.
However, neurosurgeons and vascular surgeons clai                              high rates of success in                restorig
blood flow.

The most common non-surgical treatment is anti- platelet medication, usually aspir.
Clca studies show an aspirn every day reduces the rik of stroke. Other drug
treatments are now being evaluated.
In recent year, the frequency of caotid endaerectomy has not increased due to
medica appropriateness questions surroundig the procedure. Concerns include the
quacations of physician performg the surgery, surgica settings, post-surgica
neurologica deficits , and high mortty rates.

PRO   Pr           Rev
In each State, HCFA contract with a Utiltion and Quaty Control Peer Review
Organtion, commonly known as a PRO, to review the appropriateness and qualty
of surgery performed on Medcae beneficiares.

Prior to October 1991, HCF A required PRO preprocedure review for al carotid
endarerectomies covered by Medicae. On October 1, 1991, HCF A eliated al
requied preprocedure review.
1 However, a PRO may request . to contiue
preprocedure review if it ca prove it is cost effective and would improve qualty of
cae. At th time , HCFA has not given approval for any PRO to perform

Pr Re Cr Il
preprocedure review for caotid endarterectomy.

                                  Dign       IndCion
Under preprocedure review, each PRO developed review criteria and diagnostic
indicators for approvig caotid endaerectomy. Criteria are general stadards on
which PRO approval is based; diagnostic indicators are measurements or test results
which substatiate the criteri.

Typically, PROs had commttees which developed criteria and diagnostic indicators in
consultation with State medica asociations and a variety of individuals. In large
States, specialty societies , such as vascular surgeons or neurosurgeons, were involved.
In smaler States, the commttees solicited individual physician opinons.

The PROs submitted the criteria and indicators to the HCF A regional offce, which
reviewed and approved them before they could be implemented. Once HCF A
approved the criteria, the PROs were requied to share them with providers.

A description of the PRO preprocedure review process is in Appendix




    1 HCFA, Directed Change Order (DCC 91- 13): Cesstion of Preadmision!
Preprocedure Review. The HCFA does alow preprocedure review for approved
objectives, interventions under the quality intervention plan and asistats at cataract
surgery.
Rean Stu
The National Intitutes of Health (NIH) is supportg two large , multi- intitutional
randomied tral. Both the Asymptomatic Caotid Atherosclerosis Study (ACAS) and
the North America Symptomatic Caotid Endaerectomy Trial (NASCET)
Collaborators examie the effectiveness of caotid endaerectomy in reducing arterial
occlusion and preventing strokes. 2 Effectieness of caotid endarerectomy is also
being examed in the European Caotid Surgery Trial.

In Februry 1991, the NI isued a Clca Alert detag the benefits of caotid
endaerectomy for cert indidua. The Agency for Heath Cae Policy and
Research with the Deparent of Health and Human Servces has alo issued
report reviewig recent medica literature concerng caotid endarerectomy.

MEODOLOY
Da Coll
We obtaied the PROs ' prospective review criteria from HCFA We confed and
updated the criteria with 47 PRO offcial representing al 50 States , the District of
Columbia, Puerto Rico, and the Virgi Islands durig March 1991. In this report we
refer to these 53 jursdictions as States.

From the PROs we requested numerica data and a description of their review
procedures. The data requested for caotid endaerectomies included the number of
preprocedure requests and denial. We asked States to provide us with caenda
year 199 data. However, some States supplied data from the Thd Scope of Work
for contract year 199. Ths inormation is presented in Appendi B.




    North American Symptomatic Caotid Endaerectomy Trial Collaborators,
Beneficial Effect of Caotid Endarerectomy in Symptomatic Patients with High-
Grade Caotid Stenosis      New England Journal of Medicine 1991;325:445- 453.

     'MC European Caotid Surgery Trial: Interi Results for Symptomatic Patients
with Severe (70-99 percent) or with Mild (0-29 percent) Caotid Stenosis (UK Medical
Research Council), Lancet. June 25 , 1991; 337(8752):1235- 1243.

       S. Deparent of Health and Human Servces , Public Health Servce , Agency
for Health Cae Policy and Research, Offce of Health Technology Asessment,
Carotid Endarterectomy (revised1 AHCPR Health Technology Assessment Reports
July 1991 , Number SR.

      The PROs report that fial denial      data could   change as some denials were
subject to reconsideration appeals.
Da
We analyzed al PRO criteria for caotid endarerectomy. We then identied the
crteria which PROs used most frequently. Basd upon advce from our health care
consultant, we narowed thi selection to three priar medca crteria. We clasifed
inormation with the three criteria based on        sim
                                                   medica defitions. The PROs
do not always use simar term to descrbe medica criteria. Therefore, we sometimes
use one partcul term which is representative of the PROs ' varous termologies.

We categorid  each PRO by the tyes of priar crteria it usd. The PROs fell into
             dependig on the combination of the three crteria they used. To
four categories
determe if PRO crteria afected denial we caculated the number of denials for
each of the four categories. We then compared denial numbers and rates among the
four groups. To test for dierences between the groups, we used a liear        logitic
analysis of categorical data.     Each category of criteria was entered into the model and
the signcace of the estiated coeffcients determed using Wald chi square
statistics.

Consultat servces were      secured under contract from the Vilanova Uniersity     College
of Nursing.




              W. Hosmer and S. Lemeshow Applied Logistic Regression (New York:
John Wiley and Sons,    Inc. ,   1989).
                                 FINDINGS
TWO-TI OF PROs USE 1H PRIY MEICA
EVALUATE CAOT ENARTEMY.
                                                                   CR
Six-six percent of the States (35 of 53) had PRO criteria which contaed all three
priar medica criteria. The remaig 18 States did not have al three criteria but
varous combinations of the medical crteria. The crteri were     syptomatic stenosis,
asptomatic    stenosis and stroke hitory. Several States   alo us criteria other than
the three priar crteria.

Symptomatic stenosis is a constrction of the caotid arery tht results in physica
syptoms such as    TI. Asptomatic stenosis is a constrcton of the caotid arery
resulting in no outward syptoms. A patient' s previous stroke experiences comprie
the stroke hitory criterion. A matri and syopsis of indidua State criteria is
presented in Appendi C.

DIAGNOSC INICATORS USE TO SUBANTE                              MEICA
VARY FROM PRO TO PRO.

Even when States had the   sae medica crteria, the diagnostic indicators they
required to substatiate the criteria difered.

Syto11 Ste
Every State used syptomatic stenosis as a criterion for approvig carotid
endaerectomy. The PROs ' criteria generaly included (1) patient syptoms and (2)
demonstrated stenosis. Accptable syptoms always included        TI.Th-six States
specifcally mentioned thi term. The other 17 States used more general defitions
such as indicatig a patient must demonstrate cerebrovaular insuffciency syptoms.
A common manestation of such inufcient circuation is a       TISome States also
accpted other neurologica conditions as syptoms warrting consideration of
caotid endarerectomy.

States diered in their diagnostic indicators for syptomatic stenosis. Fort-three
States used percentages which measured the amount of obstrction in the carotid
arery as diagnostic indicators. Ten States did not specif stenosis percentages. These
10 States general requied diagnostic test fidigs that confed an atherosclerotic
lesion.

For the 43 States using percentages , the percentage of stenosis required for surgery
ranged from 50 to 95 percent. These States used 60 percentage indicators for
syptomatic stenosis. Several States used more than one percentage indicator based
on the severity of specifc physica syptoms. The lowest percentage accepted by each
State is presented in the graph below.


            Variance in PROs ' Lowest Acceptable
                            Stenosis Percentages
                                                                     Symptomatic
                                                                EB   Aaymptomatlo


       r 20





                 30..      50.,      60.,      70.,     80.,
                                                         75.,
                        Lowest Percentage Accepted for Approval
  43 States Use Symptomatic Percentage.

  46 State. U.e "symptomatic       Percentage.





    pto11     Ste
Diagnostic indicators for asptomatic stenosis vared widely. Fort-six States
addressed asptomatic stenosis as a criterion. However, there was little commonalty
among the diagnostic indicators.

The 46 States had a tota of 109 diagnostic indicators for asptomatic stenosis. We
found PROs representing 33 States used multiple indicators for thi term. For
exaple, in Miesota, approval for asptomatic caotid endarterectomy required:
      80% stenosis , or greater than 70% stenosis with ulcerated plaque
      indicated by arteriogram or digita subtraction angiography (DSA), or
      less severe stenosis demonstrated by arteriogram or DSA with one of the
      followig: evidence of "silent-inarcts II on brai- afected side indicated by
      cr or MRI or cholesterol emboli to the eye.
Of the 109 diagnostic indicators for   asptomatic stenosis      83 included stenosis
percentages representing the amount of caotid arery narowing. The lowest
percentage accpted by each State is presented in the graph on the previous page.
Some States used more than one percentage indicator, depending on other medical
evidence. The 83 stenosis percentages vared from 30 to 90 percent. Most defitions
(65 of 83) requied 70 to 90 percent stenosis, unless an ulcerative lesion was present.

Strke   His
Diagnostic indicators for prevous stroke were often loosely defied or       not addressed.
Th-nie States addressd stroke hitory. Their diagnostic indicators for previous
stroke fell into five general categories.

        Sixeen States requied a stroke patient to have signcat improvement but did
        not defie duration of the stroke.



        Eleven States required a patient' s stroke to last over one week with signcat
        improvement or recovery of neurologica function.

        Six States accepted strokes without further quacations.

        Five States   defied strokes with multiple qualers (e.g., stroke in evolution and
        acute stoke).

        One State required strokes to have occurred withi a certain period of time
        before the review.



1H RETIONSH   BET PROs' CR                                  SE0N AN DEN
RATE IS UNCETAI.
Based on the tyes of priar crteria used, the PROs fell into four categories. The
categories were: all thee priar criteria (syptomatic stenosis, asptomatic
stenosis , and stroke history); syptomatic stenosis and asptomatic stenosis;
syptomatic stenosis and stroke history; and only symptomatic stenosis. The PROs
denied 90 caotid      endaerectomies out of 53 528 preprocdure      requests in 1990
resulting in a national denial rate of 0. 17 percent. Each of the four categories had a
dierent denial rate but al were under 1 percent, as shown in the table on the next
page.

The two PRO categories without stroke history had denial rates of 0. 44 and 0.
percent. Statisticay, the two categories have signcatly higher denial rates than
those which included stroke hitory. Therefore ,  the decision to include or not include
stroke history as a criteria seemed to impact a PRO' s denial rates. However, the
denials for one of the categories without stroke history   caefrom only one State
(AZ). Th skewig of the data indicates        that the effect of including stroke history in
PRO criteria should be interpreted with caution.
    ..:::"   . ..... ...        ... ....     ......,.......
                                                 .. ...         . ..
                                                          ...............
                                                        ::..                          ..... ...,".
                                                             ..... ...."..".......,-....,-..
                                                                            ................
                                                                      .... ..... ...         , ....
                                                                                               ....     ....
                                                                                                        ... ........       .:::::
                                                                                                             ................................,

                                                                                                       . :///:::
                                                                                                           ......
                                                                                                          .......      ..........................',
                                                                                                                          ....
                                                                                                                            .....
                                                                                                      ......",'...,,'."..........
                                                                                               :::..::::::::::
                                                                                                     :.:.::::::..:..:.                   ...::.::::::::.:.:::::.
                                                                                                                            . "'"....,.".....
                                                                                                                                       ....   ....
                                                                                                                                             :/::\'
                                                                                                                                               ....,
                                                                                                                                             ...        ...
                                                                                                                                                   ....'::
                                                                                                                                                 ::.:.'   .....  . ...................".....
                                                                                                                                                            . . ..
                                                                                                                                                         ....       .....
                                                                                                                                                                     . .......  ..... ......     '" ..             ... ....".
                                                                                                                                                                                                         .. . .................
                                                                                                                                                                                                                          '::):: :..




                                           Denial Rates for the Four Criteria Categories
                    . n. ..",
                                _dr
                                  .SteoosIS\/?:                                                         t)):"
                                                                                                                                   .Pf.
                                                                                                                                                                 oel8///?                          :neni8:(((.
                                                                                                                                                                                                                    I'.:.


                                                                                                                     41,




                                                                                                                        152
                                                                                                                ::m::




The remaig two categories had denial rates relatiely close to the national average.
States with al thee criteria had an average denial rate of 0. 11 percent and States with
syptomatic stenosis and asyptomatic stenosis crteria had a denial rate of 0.
percent.

StI wi Sytoml Ste Astoml Ste an                                                                                                                             Strke IrlSry

The 35 States using al 3 priary PRO criteria denied 47 of 41 633 requests.
However, the majority of denial (34) were reported in just 6 States. Nearly hal                                                                                                                                      the
States (17 of 35) did not report any denial at

As shown in the followig table, these 35 States had a collective denial rate of 0.
percent (47 of 41, 633) compared to the national average of 0. 17 percent. The 47
denials represented 52. 2 percent (47 of 90) of all denial.

    Denial Rates for States with Symptomatic Stenosis, Asymptomatic Stenosis
                                                                and Stroke History Criteria
                                             n....                                 . o.


                                             \:::.:N8if6f'                     iSstM/Y'::'::'                       NO!f6f.:rmHiBi:/                                   :. ,n:.::, i..          hfb ri9d"':
 Alabama                                                       1074                                                     Not Available                                                   Not Available
 Alaska
 Arkansa                                                         801
 Califomta
 Colorado


 Florida
 Geor la                                                       291
 Idaho                                                           133
 Kansas                                                        132
 Maine                                                          231
 Ma land                                                        870
  . ...
 ..... ,..                         ......:?))
             .. .. .......... .... ,..........,..        ............,
                                                    . ....                .......... ............
                                                           ,.............. .........   ...... .       ...
                                                                                                    \//'
                                                                                                    ..... .... ...... ....... ...........
                                                                                                      ,......................... , ....:.... . . ..   .....   ... ..
                                                                                                                                                              ,..........
                                                                                                                                                              .......,     ........ . ,... .. .........
                                                                                                                                                                         ..........,................
                                                                                                                                                                ::. :::::::p                              .     . ...
                                                                                                                                                                                                              . ...




                                                           NoJdr.                 oeid:                          NO/d.                1818:'(                                 ffijrt' Dijl
    Maschuse                                                          762
    Michl an
    Minnesa
   Misslssi I
   Montana                                                            161

   New Je                                                           139

   New York                                                         160

   North Carolina                                                   130

   North Dakota                                                       127

   Ohio

   Oklahoma



                                                                    261
   Puerto Rico


  South Caolina

  South Dakota                                                       164

  Tenness                                                           165

  Texas

  Vermont



                                                                   1138

  Wisconsin



 Tbt i:2'35' StM


Sta wi Sytoma Ste an Aqtoma Ste
Eleven States had criteria that addressed syptomatic stenosis and asptomatic
stenosis. Th group denied 31 of 7, 005 requests. However, the denial rate in the
States was afected by just 1 State , Arona, which reported al 31 denial. At 5.
percent, Arona had the highest denial rate of all States. As shown below, Arona
denial rate was more than 30 times the national average of 0. 17                                                                                         percent.

      Denial Rates for States with Symptomatic and Asymptomatic Stenosis Criteria
                                                    '::NaJ8fR'::::::           ues/i                      j(NoHibeniai/)                                       /\Percrtb&1i&f

 Ariona                                                            542

 Connecicut

 Delaware                                                          130

    ..
   ... . .,... .....
   .......
   ..........
  ......        ....)?)'
             .... ........
  ........".........
 ...........    .......  .....,",.......................
                     ..................'..
                               ..,...........................
                      .....................
           ...........".....-,..................
 .......................    .....,.................
                                     ... ...................
         ................................
   .............
 :::::::)))'........   ...               .....................
                           ................
                ......,..,..-.........
                       "",'........
                           ...
                             ........      "."                         ....... .....
                                              ........ ........... . .:'.....
                                                                      .... ....
                                                                              ...
                                                                               ..'....
                                                                                 ...      ................
                                                                                        ....
                                                                                     ....
                                                                                  . ........   .............
                                                                                               .....
                                                                                            .....      ..............
                                                                                                    ..........
                                                                                               ...........
                                                                                          ............
                                                                                          .                      ....
                                                                                                  ......................./:::' ..
                                                                                                                      ....    .....
                                                                                                                              ..............
                                                                                                                          .............
                                                                                                                 ...............
                                                                                                                   .......
                                                                                                                        .............
                                                                                                                            ...........
                                                                                             ........................................
                                                                                         .........                    ..... ..........
                                                                                                                          ...                ...
                                                                                                                                           .......
                                                                                                                                   ...... .......    /..

                                                                                                                                                     .......   .,.........
                                                                                                                                                                 ....
                                                                                                                                                             .".,"...
                                                                                                                                                    "'))).'...
                                                                                                                                                           ...
                                                                                                                                                            ...
                                                                                                                                                              ...........................
                                                                                                                                                                      ....................
                                                                                                                                                      ...............................
                                                                                                                                                                            .....,.......
                                                                                                                                                                                 .......
                                                                                                                                               .... .........'....................         '"' , .....
                                                                                                                                                                                         ..........
                                                                                                                                                                                  . ..........
                                                                                                                                                                  -,..............,...,..,..
                                                                                                                                                                   .................
                                                                                                                                                                            ..                                   ......
                                                                                                                                                                                                                  .......
                                                                                                                                                                                                       .. .... ..............
                                                                                                                                                                                                                 .....
                                                                                                                                                                                                                    .."... ...................
                                                                                                                                                                                                                             .....................'........
                                                                                                                                                                                                                           ''''   .........................
                                                                                                                                                                                                                  ...............................
                                                                                                                                                                                                                              ..''''.....
                                                                                                                                                                                                                                """'''''''                 . ..
                                                                                                                                                                                                                                                     ..... ........
                                                                                                                                                                                                                                             .................
                                                                                                                                                                                                                                       ...'''''''''''''''''..
                                                                                                                                                                                                                            .....................
                                                                                                                                                                                                                                     .....          ..            . ''..
                                                                                                                                                                                                                ........................................................ ...
                                                                                                                                                                                                                                                                          . ... ....
                                                                                                                                                                                                                                                                      .................
                                                                                                                                                                                                                                                              ................
                                                                                                                                                                                                                                                                       .....
                                                                                                                                                                                                                                                                      ........      ...




                                                                                                                                                                                                          n....
                                                                              ?,N()Bfff. esriF                                                       \iN6?bfDihiii:.'...                                              r.".p         tditdjiH
    HawaII                                                                                       102
    illinois
    Indiana                                                                                    150
    Kentuc
    Nevada
    New Mexico                                                                                   127


                                  ..... ..... n...                                              674
 ::tr6tal(::::::t1 ittttt\tf1mrtmHrrf::




Sil wi                            Syto Ste an Str Hisry
Four States with criteria addressing syptomatic stenosis and stroke history denied 4
of 3, 367 requests. The 4 denials represented 4.                              of 90).                                                                  4 percent of all denials                                                     (4

Collectively, these States ' denial rate of 0. 12 percent (6 of 3 422) was comparable to
the national average of 0. 17 percent.

          Denial Rates for States wit Symptomatic Stenosis and Stroke History Criteria
              )m):.:)Statit?t::t.:tt.:::.)::?::....                       ///N8HSfFf..OBtt')(:\                                                         N8i6f'bii8'''                                          :tttt'pircenFbenkKi'm?t:\):tt
   Louisiana                                                                                  135
   Missuri                                                                                    166
   New Ham hire                                                                                 137
   Utah                                                                                        214
  ff& F;;.4StMmr



Sil wi                           Sypto11 Ste Crn On
The three States with criterion addressing only syptomatic stenosis denied eight
requests or 8. 9 percent of all denials. Whe these three States had a collective denial
rate of 0. 53 percent (8 of 1                                                          523), six of the eight reported denials occurred in one
State (Iowa).

                                Denial Rates for States wit Symptomatic Stenosis Criterion Only
                                                                                  N6fbfi=f..                                                         .N6J' 6fDenlahf.                                                ':/(PercentDerl9a9
   Iowa
   Nebraka
   Rhode Island                                                                                130
 "TOtaV.'                   Sime..
                                                                  AI DEN
              TH SA CR
PROs IN mGm STATE AaDUN FOR 79 PERCE OF
     TI  SH
AS PROs WI NO DEN
                                                 AN DIAGNOSC INICATORS

The PROs in eight States reported more     th    thee-quars of al caotid
endarterectomy denial in 199 (71 of 90). The caus of the higher denial rates in
these eight States was not due to any parcular combintion of crteria or diagnostic
indicators. In fact, other States with exactly the same crteri and diagnostic indicators
as some of these eight States had much lower denial rates.

These eight States had varous caotid endaerectomy crteria and diagnostic
indicators. In six States (CA, CO, MI OR, TN, and VA), PROs addressed al three
national medica crteria. The Arna PRO criteria addressd syptomatic and
asptomatic stenosis. The Iowa PRO criteria address onl syptomatic stenosis.
Each of the eight States had four or more denial for caotid endarerectomy durig
199. The 71 denial (out of 14, 711 requests) resulted in a denial rate of 0. 48 percent,
alost 3 times the national average of 0. 17 percent. These States, however, accunted
for only 27. 5 percent of al preprocedure requests.


EXl.H1 FO         PATI WI SEVE SYMATIC STOSIS
 EN.tTl OF CAOT               ENARTEMY AR UNCL
Two recent studies have concluded that caotid endaerectomy is beneficial for
syptomatic patients with severe or high-grade stenosis (70 percent or more) of the
internal caotid artery. However, no signcat boy of medica inormation shows
that carotid endarerectomy is effective for lower-grade syptomatic stenosis   or for
asptomatic stenosis.
Severe syptomatic stenosis is the one criterion where medical consensus exists.
The Nort America Symptomatic Caotid Endaerectomy Trial Collaborators
concluded that caotid endaerectomy is highy beneficial for patients with    TI
non- disablig strokes who have high-grade stenosis. The European Caotid Surgery
Trial alo found that caotid endarerectomy was useful in treatig stoke patients with
severe caotid   stenosis.
The benefits of caotid endaerectomy are not as clear for mid (0-29     percent) to
moderate (30-9 percent) syptomatic stenosis or for asptomatic stenosis.
However, the European trial found that for mid stenosis the results indicated that the
riks of surgery   outweigh the benefits.

Among the 43 PROs who specifed syptomatic stenosis percentages , 2 States ' lowest
accptable percentage for surgery was 75 percent and for another 4 States it was 80
percent. However, the majority of States allowed carotid endarterectomy for 50
percent or greater syptomatic stenosis.
                            CONCLUSION

Under preprocdure review, the PROs allowed caotid endarterectomy surgery for a
wide range of diagnostic indicators. Diferences among PROs may have resulted from
the lack of objective medica data outlinig when caotid endarterectomy was
beneficial. It is dicult to develop criteria for preventing unecessary surgery when
there is no clear data on when surgery is necessa or beneficial.

When creating criteria for surgical procedures where there is little objective medical
data , PROs have two choices. They ca alow surgery for a greater range of
diagnostic crteria where the benefits from the surgery have yet to be proven. Or they
ca deny surgery for all but a very select subset of criteria.

However, there is no perfect choice. Under the   fit option, there may be certai
patients who have surgery that future research proves is unnecessary and ineffective.
The second option may exclude patients from havig surgery that is later found to be
effective for their particular circumstances.


When reviewig the PROs ' criteria in light of the new research on caotid
endarterectomy, most PROs seem to have selected criteria that fal under the fist
option. As of this time , research has proven caotid endarterectomy beneficial only
for patients with severe stenosis (70 percent or more). For this particular criterion
the majority of PROs allowed surgery when there was stenosis of 50 percent or more.

The PROs ' caotid endarterectomy criteria did not have a clear effect on denial rates.
Ths conclusion provides further support for HCF A' s decision to eliate   the
preprocedure review requirement for caotid endarterectomies.
                             APPENDIX A

          DESON OF PRO PREROCUR RE PROC

The review procss does not vary signcatly among PROs. Physician usuay intiate
the review procss prior to performg a caotid endaerectomy. However, the lie-
threatening nature of a stroke sometimes requies retrospective approva.

Re for
Typicay, the recommending surgeon, a sta     member, or hospita    sta
                                                                     telephones the
PRO to review the patient s condition aI1d seek preprocedure approval. Most PROs
also accept mai requests and a few accpt    them   via facsime machie.

Ini Re by Re                Nun
Regitered nurses (RNs)     review the intial preprocedure request, comparg the
physician s diagnosis and the patient' ssyptoms agait the PRO criteria for caotid
endaerectomy. The RNs ca approve the request based on the inormation the
physician (or physician s representative) provides. If the request does not meet the
criteria, the RN refers the cae to the PRO physician advior for review.

PRO Physi

The PRO physician conducts a second review of the requests which have not met the
criteria, often contacting the recommending surgeon to discuss the cae further. Afer
the review, the PRO physician approves or denies the procdure.

When a PRO approves a preprocdure request, it asigns the cae an approval
number. When the PRO denies a request altogether, it tyically inorm both the
surgeon and the patient of the decision, the rationale , and an explanation of appeal
rights.
                                                                                                                       ...   ......                 :;'   "..               ..            ..                           .........




                                                                         APPENDIX
                                   1990 PRO PREPROCEDURE REQUESTS AND DENIAS

                                           FOR CAOTID ENDARTERECTOMY

                                                     BY STATE




AL  1,
ALSKA
 i:::i::::::




ARZONA
                                                    111:1:lilii'
        ::II:::llj::::I:I::lllllllillll::::11:1 i:11!11. !i!::lji:jllllii::I.
                                                                         :::IIIIII:III!:i:-1::::I:I:::::liill:::.
                                                                                    074
                                                                                                                    )1:1Ii:il:
                                                                                                                           ::lj::J::ilii:::;:

                                                                                                                                                NIA.
                                                                                                                                                o
                                                                                                                                                31 0.

                                                                                                                                                   5.

                                                                                                                                                                                                P.1mCE
                                                                                                                                                          i:iill:i::I:I!:::II!::illl:II::::::::!:::!i!:!!i:iiii


                                                                                                                                                                                                           NIA
                                                                                                                                                                                                                  :11:11




ARSA
CAORNIA
COLORA5,
                                                                                  542
                                                                                  801                                                           o 0.

CONNECTCur
                                                                                   043
                                                                                                                                                4
                                                                                                                                                o                    1.

                                                                                                                                                                     0.
                                                                                                                                                                                                           a12


DELAWAR                                                                           130                                                           o
                                                                                                                                                o                    0.
                                                                                                                                                                     0.
FLORIDA
nc




GEORGIA 3,                                                                          869                                                         o
                                                                                                                                                1                    0.
                                                                                                                                                                     0.

HAWAII
nMO
                                                                                2,941
                                                                                 102                                                            o
                                                                                                                                                o                    0.

                                                                                                                                                                     0.
INDIAA
nuNO
IOWA   1,                                                                       2,no
                                                                                   504                                                          o
                                                                                                                                                6                    0.

                                                                                                                                                                     0.
                                                                                                                                                                                                          a 00


KASAS
KECKY 1,                                                                          726
                                                                                   325                                                          o
                                                                                                                                                o                    0.

                                                                                                                                                                     0.
LOUISIAA 1,                                                                        356                                                          1
                                                                                                                                                o                    0.

                                                                                                                                                                     0.

MAYLD
MANE




MASACHUSETTS
                                                                                 870                                                            1                    0.

MICHIGA
MINESOTA
                                                                                  762
                                                                               2,598
                                                                                                                                                o                    0.

                                                                                                                                                                                                          a13
                                                                                                                                                                                                          a27

MISSISSIPPI
MISSOUR    1,
                                                                                364
                                                                                658                                                             o                    0.
MONTANA
NEBRAKA                                                                          161                                                            o                    0.
                                 a12


NEVADA
  HAPSHIR
                                                                                 667
                                                                                                                                                o
                                                                                                                                                o                    0.

                                                                                                                                                                     0.
                                                                                                                                                                                                         0.30

NEW
NEW JERSEY 1,
NEW MEXCO
                                                                                 137
                                                                                  390                                                           o
                                                                                                                                                o                    0.
                                                                                                                                                                     0.
NEW YORK 1,
                    CAOUNA 1,304
                                                                                 127
                                                                                                                                                1
                                                                                                                                                1                    0.

                                                                                                                                                                     0.
OHIO
NORTH
NORTH DAKOTA 127                                                                                                                                o                    0.

OKLOMA                                                                         2,922
                                                                                552                                                             o                    0.
                                a17
             ':'   :!..
                    :':':. . ..            ... .           .. - ...... ......,   :!'.               ... ......,
                                                                                                     .. ..,...




                                           i: .                                            OF\
 OREGON
         :lj::f.                           i)fU
                                                   786

                                                                                  HtpE\/
 PENNSYVANIA                                      2,6S1

 PUERTO RICO

 RHODE ISLAD                                      130

 SOUTH CAOUNA                                     460

 SOUTH DAKOTA                                     164

 TENNESSEE                                         6S3

                                                   639

 UTAH                                             214

 VERMONT

 VIRGINIA                                         943

 VIRGIN ISLADS

 WASHINGTON                                        138

 WEST VIRGINIA                                    674

 WISCONSIN                                        935

 WYOMING

 NADONA TOAL                                  53, 528



da for   cal year 199 asins
year 1990.
                         req condte
AU data is diectly from PRO
                              oth
                                    dug th inctn.
                                        provi da for th          choe to
                                                                                            Some PROs were able to
                                                                                               Thir Scope of Work contract
                                                                                                                           provi


. We use       th degn            n/a to   inat     tht data was not             availe at th tie   of OUT        inter.
                                  ~~~
'::::::::::::::::::::::::::::::.:.:::://:::
               ......,      ::::':"':"        :. ," :\:::
                                                      :'::                         ...
                                                                                  (::::-   . "" """"'::"" ,   : ...    ....
                                                                                                                        ....




                                                             APPENDIX 

                         MATRI OF STATE CRIRI FOR CAOTID ENDARTERECTOMY

AL                                                             MA71q::::::)
                                                                                  . n..                               ::(i     ?J. ()Kl1)\

ALSKA .
ARZONA
ARSAS.
CAFORNIA .
COLORA.
CONNECTICUT
DELAWAR

FLORIDA.
GEORGIA .
HAWAII
IDAHO.
ILLINOIS
INDIAA
IOWA
KASAS.
KENTCKY
LOUISIAA
MANE.
MAYLD.
MASACHUSETTS.
MICHIGAN.
MINNESOTA.
MISSISSIPPI.
MISSOUR
MONTANA.
NEBRASKA
NEVADA
NEW HAPSHIR
NEW JERSEY

NEW MEXCO
NEW YORK.
NORTH CAOLINA.

NORrH DAKOTA.
OHIO.
OKLOMA .
OREGON.
PENNSYVANIA .
PUERTO RICO.



                                                                         C - 1

 ..   \::.                                        ......




RHODE ISLAD
             STT.H       \SY77C\)    :?JUMA77C(            ?($TOKE:

SOUT CAOLINA­
SOUT DAKOTA­
TENESSEE­
TES­
UTAH
VERMONT­
VIRGINIA

VIRGIN ISLADS
WASHINGTON­
WEST VIRGINIA
WISCONSIN­
WYOMING­
TOAL




* INCLUDES ALL THREE   CRIRI

                               C-2
           SYNOPSIS OF STATE                       CR                    FOR CAOT                      ENARTEMY
AlIl
SYMOMATIC STENOSIS:
             Symptoms: The patient must have latera1d tranient neurological
             dysfuction involvig speech, reason, motor, or sensory function, stroke , or drop
             attacks (vertebral-basilar ishemia). And:

             Imagig:           Angiography must demonstrate stenosis                                   70% , stenosis   60% with
             ulceration, deep ulceration related to
             with stenosis 
50% on the other side.
                                                                               TI         or complete uniateral occlusion



ASYMOMATIC STENOSIS: The patient must have (1) a brut, ultrasonic stenosis
     70%, and angiographic stenosis 
                           70%; or (2) complete unilateral occlusion with
stenosis           50% on the other side.

STROKE: Stroke is defied as a recent                                    stroke with          goo to excellent recovery of

fuction.

OTHR: Caotid-subclavian shunt warants carotid endarerectomy.

AIa* IdD                  d:   Wasgtn

SYNTOMATIC STENOS
            Symptoms: Patient must have at least one
            cholesterol emboli in the retinal arery. And:
                                                                                        TI amaurosis fugax stroke, or
            Imagig: Imagig must                        be positive for either an ulcerated plaque or                     50%
            stenosis on the afected side.

ASYMOMATIC STENOSIS: Noninvasive study, arteriograph , or digital
subtraction angiography must demonstrated 
                                      80% stenosis or an ulcerated plaque.

STROKE: Stroke (CVA) is not defined.

OTHR: None.




                                                                       C - 3

                          &:




Arna     Hawai                    Nevad
SYMOMATIC STENOSIS:
       Symptoms: The patient must have amaurosis                                 fugax tinglg libs of   face
       (paresthesia), paresis (or paralysis),                    diess,         diplopia (double vision), or
      vertigo. And:

      Imagig:             Angiography must demonstrate                       50% unateral stenosis of the
      common or internal caotid, 
                 50% bilateral stenosis internal caotid               occlusion
      asocated with 
                  50% contralateral stenosis or an ulcerated plaque.

ASYMOMATIC STENOSIS: Angiography                      70% uniateral   must demonstrate

internal or common caotid 50% stenosis in the presence of a contralateral
                                             stenosis,

internal or common caotid, or a total occlusion.

STROKE: Not addressed.

OTHR: None.


SYMTOMATIC STENOSIS:

      Symptoms: The patient must have    clasica                            TI with hemiparesis
      hemianesthesia, or dysphagia lastig c: 24 hours;  amaurosis fugax (transient
      monocular blidness); unilateral deficits such as hemiparesis of hemianesthesia
      lastig 24 hours to 7 days; or stroke. And:


      Imagig: Angiography must                           conf         50% diameter reduction.

ASYMOMATIC STENOSIS: Areriogram must                                          show       80% diameter reduction.

STROKE: Stroke is defied as lasting over one week with signifcant recovery of
neurologica fuction.


OTHR: None.
Clomi
SYMTOMATIC STENOSIS:
      Symptoms: The patient must have clasical          (with hemiparesis   TI
      hemianesthesia, or dysphasia lasting c: 24 hours), amaurosis fugax (monocular
      blidness           10 minutes), unilateral neurological deficits (such as
                        lasting




                                                                C-4
          hemiparesis, hemianesthesia, or monocul blidness) lasting 24 hours to
          several days (reversible ischemic neurological deficit or RIN), or stroke. And:

          Imagig: Angiography or DSA must demonstrate stenosis of 80% or carotid
          lesion with ulceration, or CAT sca or MRI must demonstrate silent inarction
          with stenosis of 80% or caotid lesion with ulceration.

ASYMOMATIC STENOSIS: Angiography showig                    80% stenosis referred for PA
review.

STROKE: Stroke is defied as a stroke       lastig over one   week with complete or
nearly complete recovery of fuction.


OTHR: Asptomatic caes in special HCFA study are automaticay approved for
specifed practitioners and providers.

Colo
SYMOMATIC STENOSIS:
       Symptoms: The patient must have one of the followig: tranient monocular
       blidness (amaurosis fugax) with ipsilatera stenosis or    plaque with ulceration;
       TI involvg the anterior circulation with face, arm, hand, or leg numbness or
       weakess, aphasia, , or dysphasia for .c 24- hours traceable to the
       appropriate caotid; or recent CV A. Additionally, the medical record must
       document the neurologica deficit. And:

       Imagig: Areriogram       or DSA must show a hemodynamcay signcat lesion
       defied as at least 60% diameter stenosis 84% cross sectional       area stenosis ,   or
       ulceration. Hemispheric symptoms alo        require a cr scan   or MRI.

ASYMOMATIC STENOSIS: The patient must have a hemodynamcally signcat
lesion , defied as at least 60% diameter stenosis 84% cross sectional area stenosis , or
asptomatic severe , deep ulcerative plaque.

STROKE: Stroke is defied as a recent CV A traceable to the extacranial carotid
source where the patient made a with functional recovery, but would benefit from
protection agaist a recurrent event in the ditn"bution of the stroke arery.      It also
includes stroke in progress or acute stroke with     6 hours followig carotid
endarterectomy or neck trauma.

OTHR: None.




                                          C - 5

Coti

SYMOMATIC STENOSIS:
            Symptoms: The patient must have a foc or neurological deficit (transient or
            permanent) compatible with a caotid lesion. Brai imagig must not reveal a
            lesion that could explai the clica fidigs. And:

            Imagig:             Angiography must demonstrate                        60% liear stenosis of the internal
            caotid arery, or signcat ulceration of the internal caotid arery                            with
            symptoms of cerebrovascular                            inuffciency compatible with the afected side
            whie on antiplatelet drgs.

ASYMOMATIC                            STENOSIS: Angiography must demonstrate                         90% stenosis of

internal carotid artery in the asymptomatic patient.


STROKE: None.

OTHR: None.

Dear               d:            Yug
SYMOMATIC STENOSIS:
            Symptoms: The patient must have cerebrovascular insuffciency symptoms.
            And:

            Imagig:             Angiography must demonstrate       50% unilateral stenosis of the
            common or internal carotid,             50% bilateral stenosis, internal carotid occlusion
            with             50% contralateral stenosis, or an ulcerated atheromatous plaque.

ASYMOMATIC                            STENOSIS: Angiography must demonstrate                         80% uniateral
internal or common carotid stenosis                                    50% stenosis in the presence of a contralateral
internal or common carotid, or tota                               occlusion.


STROKE: None.

OTHR: None.

Dit of              Coluia            d:   Marla

SYMOMATIC STENOSIS:

            Symptoms: The patient must have            amaurosis fugax         TI                previous
            atherothrombotic stroke , stroke- in-evolution, crescendo                          TI,   or recurrent




                                                                          C-6
       global or non-specifc syptoms whie on antiplatelet or anticoagulant therapy.
       And:

       Imagig: For     TI or amaurosis fugax angiography or duplex imagig must
       fid ;: 50% diameter ipsilateral common or internal caotid arery stenosis. Or
       angiography must fid a    large ulcerative lesion in the   ipsilatera common or
       internal caotid artery. Or for repeated   TI,  angiogrphy must fid an
       ocluded ipsilateral internal caotid  arery and ;: 50% diameter ipsilateral
       external caotid arery stenosis. Or for persistent focl      TI despite
       anticoagut or antiplatelet therapy, angiography must fid c: 50% common or
       internal caotid arery stenosis, or a smal ulcerative lesion in the ipsilateral
       common or internal caotid arery.

       For previous atherothrombotic stroke, angiography or duplex imagig must fid
       ;: 50% diameter ipsilateral common or internal caotid arery stenosis. Or
       angiography must fid a large ulcerative lesion in the ipsilateral common or
       internal caotid arery. On rare occions it would be appropriate to perform a
       caotid endaerectomy in a patient with an acute stroke if the operation is
       performed shortly after the stroke and angiography    or duplex   imagig fids ::
       70% diameter ipsilateral common or internal caotid artery stenosis.

       For stoke in evolution, angiography or duplex imagig must fid ;: 70%
       diaeter ipsilateral common or internal caotid arery stenosis. Or angiography
       must fid   ;: 50% diameter common or internal caotid artery stenosis and a
       large multicentric ulcerative lesion in the ipsilateral common or internal caotid
       arery.
       For crescendo   TI, angiography or duplex imagig must fid ;: 50% diameter
       common or internal caotid arery stenosis, or c: 50% diameter common or
       internal caotid arery stenosis on the side appropriate to the syptoms with ::
       50% diameter common or internal caotid arery stenosis on the opposite side.
       Or angiography must fid a large ulcerative lesion in the ipsilateral common or
       internal caotid artery.

       For recurent global or nonspecifc syptoms whie on antiplatelet or
       anticoaguant therapy, angiography must fid ;: 50% diameter common or
       internal carotid artery stenosis, or a large ulcerative lesion in the common or
       internal caotid artery.

ASYMOMATIC STENOSIS: Angiography or duplex imagig                       :: 70%
                                                                      must fid
common or internal caotid artery stenosis. Or OPG- Gee must be positive for :: 50%
diameter common or internal caotid artery stenosis. Or angiography must fid a
large multicentric ulcerative lesion in the common or internal carotid artery.

STROKE: Stroke includes a patient who has suffered an atherothrombotic stroke.
The patient should not have an incapacitating or profound neurologic deficit but


                                          C ­

rather is a fuctional adult     lig withi the communty. The neurologic symptoms
should have fuy   stabild.
OTHR: None.


SYMOMATIC STENOSIS:
       Symptoms: The patient must have hemipheric and/or monocular         with an               TI
       appropriate lesion of the caotid bifcation, stroke, or global                          (die
       nonfoc) ischemic syptoms with multiple arerial oclusive lesions includig
       high grade stenosis of the internal caotid areries. And:

       Imagig: Nonivasive           studies (duplex            scag or other forms of ultrasonic
       imagig) or areriography            must demonstrated either                     50% carotid stenosis or a
       nonstenotic ulcerative plaque believed to be the source of cerebral emboli
       causing the patient' s syptoms.

ASYMOMATIC          STENOSIS: The patient must have                                 75-80%   caotid stenosis or
large caotid ulceration (complex multiple ulcerations) in selected better risk patients.

STROKE: Stroke is defied as a hemipheric completed stroke with good recovery
(mial to modest neurologica deficit). Stroke-in-evolution or waxg-and-                               wag
deficit in the presence of an untable caotid       95% stenosis or a highy
                                                               lesion:

iregular ulcerated lesion not associated with high                         grade stenosis.
OTHR: Acute       caotid thrombosis followig areriography or caotid endarterectomy
if surgery can be performed withi  1- 2 hour after onset.

Gerg
SYMOMATIC STENOSIS:
      Symptoms: The patient must have a clasical         (with hemiparesis   TI
      hemianesthesia, or dysphasia lastig c: 24 hour), amaurosis fugax (ophthalc
      arery uniateral inuffciency to retina due to internal carotid stenosis
      producig tranient loss of viion), uniateral neurologica deficits such as
      hemiparesis or hemianesthesia lastig 24                            hour to 7 days (RIN), stroke, or
      vertebral basilar ischemia (drop attacks). And:

      Imagig: The areriogram must fid a 90% caotid lesion , or an 80% carotid
      lesion with signcat ulceration, or a brai CAT scan must indicate a silent
      inarct-with a 90% carotid lesion, or an 80% caotid lesion with ulceration.



                                                      C-8
ASYMOMATIC STENOSIS: The patient must have a bruit with ultrasound
evidence of 80% or greater caotid stenosis.

STROKE: Stroke is defied as lasting over one week with complete or nearly
complete neurologica function.

OTHR: Preparatory procedure prior to performg a caotid subclavian shunt.


SYMOMATIC STENOSIS:
      Symptoms: The patient must have syptoms of caotid sytem inufciency
      (e.g., tranient monocular blidnes or amaurosis fugax hemipheric ischemia
      with weakess of numbness of the libs or face, or aphasia). And:

      Imagig: Angiogram      or doppler sca must demonstrate one of the followig:
         50% uniateral stenosis of the common or internal            50% bilateral
                                                                      caotid,

      stenosis, internal carotid                          50%  contralateral
                                           occlusion asociated with          stenosis
      or an ulcerated atheromatous plaque in the presence of cerebrovascular
      inufciency syptoms.
ASYMOMATIC             STENOSIS: The patient must have                70% unateral internal or
common caotid     stenosis, or            50% stenosis with a contralateral internal or common
caotid tota   occlusion.

STROKE: Stroke is not addressed.

OTHR: None.
Ind
SYMOMATIC STENOSIS:
      Symptoms: The patient must have "focal" cerebrovascular inufciency
      syptoms, such as: amaurosis fugax tinglg libs or face (paresthesia),
      paresis or paralysis, hemianopia, or sensory deficit. Or the patient must have
      cerebrovascular insufciency                 syptoms. And:

      Imagig: For "focal" cerebrovascular inuffciency syptoms , angiogram must
      demonstrate an ulcerated atheromatous plaque. For cerebrovascular
      inuffciency syptoms                                   50% uniateral stenosis
                                       , angiogram must demonstrate

      of the common or internal caotid           50% bilateral stenosis , or a
                                                            arery,

      severely ulcerated lesion c: 50% stenosis associated with syptoms.




                                                          C-9
 ASYMOMATIC STENOSIS: Angiogram must                                  demonstrte                70% uniateral
 internal or common caotid stenosis , or 50% stenosis in the presence of a contralateral
 or common carotid lesion or occlusion.

 STROKE: Stroke is not addressed.
 OTHR: None.
Iowa

SYMOMATIC STENOSff:
       Symptoms: The patient must demonstrate ipsilateral caotid terrtory syptoms
       such as contralateral weakess clumines, paralysis contralatera numbness
       paresthesias , dysarhra, dysphasia, ipsilateral monoclar blidness (amaurosis
       fugax), or contralateral homonymous hemianopia (defective vision affecting the
       right halves or left hales of the visual fields). And:

       Imagig: Angiogram           or duplex study must demonstrate                           75% uniateral
       stenosis of the ipsilateral common or internal                    caotid,            50% stenosis of the
       ipsilateral common or internal caotid associated                            with   contralateral internal
       caotid arery   occlusion, or ulcerated atheromatous caotid bifcation plaque
       with asocated    stenosis          50%.

ASYMOMATIC STENOSIS:                       Asptomatic stenosis is Dot mentioned.

STROKE: Stroke is not addressed.
OTHR: None.


SYMOMATIC STEOSIS:
       Symptoms: The patient must have (1) a symptom (transient speech
       dysfucton, altered body sensations, gait disturbance, dyhra, sudden
       blidness, tranient hemiparesis , or stroke), and (2) a sign (caotid bruit,
       neurological examiation confirmg deficits, or cholesterol plaques in the eye
       grounds). And:

       Imagig: Angiography must conf an atherosclerotic lesion in the
       appropriate caotid arery.



ASYMOMATIC STENOSIS: Areriogram must diagnose a 30% caotid lesion or a
caotid lesion with ulceration, or brain CAT scan must demonstrate a silent infarct
with a signcant caotid lesion.


                                                      C - 10

STROKE: Stroke is defied as a stroke with complete or nearly complete recovery of
neurologica function.

OTHR: None.


SYMTOMATIC STENOS

      Symptoms: The patient must have either foca cerebrovasular inuffciency
      syptoms such as amaurosis fugax tiglg libs or face (paresthesia), paresis
      or paralysis hemianopia, or sensry deficit; or general cerebrovascuar
      inufciency syptoms. And:
      Imagig: For foca                  cerebrovascular          inufciency syptoms, angiogram or
      arerial DSA must                 demonstrates an ulcerated atheromatous plaque.               For
      general cerebrovasular inuffciency syptoms,                               angiogram or arerial DSA
      must demonstrates an ulcerated atheromatous plaque, 
                             50% uniateral
      stenosis of the common or internal                        caotid arery,       50% bilatera stenosis , or a
      severely ulcerated lesion with c: 50% stenosis.

ASYMOMATIC STENOSIS: Angiogr or arerial DSA must                                                demonstrate
   70% unateral internal or common caotid stenosis, or 50% stenosis in the presence
of a contralateral or common caotid lesion or occlusion.

STROKE: Stroke is not addressed.

OTHR: None.


SYMOMATIC STENOSIS:
      Symptoms: The patient must have TI CV A, sycope; sudden onset of focal
      weakess , diorientation, dimg of viion , or monocular loss of vision;
      episodic senstion of or loss of consciousness or episodic confion or amnesia;
      sensory loss; or episodic dysarhra or dysphagia. And:

      Imagig:          Radiography must evidence                         70% stenosis ' of   the caotid artery with
      or without an ulcerative plaque, or sonography must evidence sigIcant
      stenosis in patients with documented severe allergic reaction to iodinated dyes.

ASYMOMATIC STENOSIS:                                Asptomatic stenosis is not mentioned.

STROKE: Stroke is              identifed as a CV




                                                              C - 11

OTHR: None.
Mai
SYMTOMATIC STENOSff:

       Symptoms: The patient must have          TI (motor or sensory), RIN (uniateral
       weakess lasting:; 24 hours and -c 48 hour with no fied neurological deficit
       and negatie CAT sca), amaurosis fugax CV A, or basilar-vertebral syptoms
       (at least two of diess, sycope , subclavian steal sydrome). And:

       Imagig: Doppler, angiography, or DSA must evidence a surgical carotid lesion
       in a suitable surgica rik   patient.


ASYMOMATIC STENOSIS: Doppler, angiography, or DSA must evidence
bilateral severe (:; 75%) stenosis, severe (:; 75%) unateral stenosis with
contralateral internal caotid arery occlusion , or severe (:; 75%) bilateral internal
carotid arery stenosis in selected pre-operative patients. In addition, Doppler,
angiography, or DSA must evidence a surgica caotid lesion in a suitable surgica rik
patient.

STROKE: Stroke is defied as CV A with recovery.

OTHR: None.
Mtl
SYMOMATIC STENOSIS:
       Symptoms: The patient must have amaurosis fugax (monocular transient loss
       of viion), CV A, TI RIN, or cholesterol emboli to the eye. And:


       Imagig: For amaurosis              TI
                                   fugax CV A,   or RIN, arteriography or DSA
       must demonstrates ulcerated plaque or :; 50%
                                                  diameter stenosis on the brain
       affected side ,
                  or a duplex sca       must demonstrate sytolic frequency60 Hz
                   5 m/sec. For cholesterol emboli to the eye , areriography or
       or velocity 


       DSA must demonstrates ulcerated plaque.

ASYMOMATIC STENOSIS: Areriograph or DSA must                                 demonstrate                  90%
diameter stenosis on the operative side or -c 2 Mm. residua lumen on the operative
side , or duplex scan must demonstrate   systolic frequency                  60      Hz or velocity of

1.5 m/sec, or the patient is preoperative for a coronar artery bypass graft and
arteriography or DSA demonstrates:; 70% diameter stenosis on the operative side
and 70-100% diameter stenosis on the non-operative side.

STROKE: Stroke is defied as CV A (ischemic) with signcant functional                                     recovery.



                                           C - 12

OTHR: Patient enrolled in Nl' s Asymptomatic Caotid Atherosclerosis Study

(Toole) or North America Symptomatic      Caotid   Endaerecomy Study Trial

(Barett) ia an automatic   approva.

Mic
SYMOMATIC STENOSIS:
       Symptoms: The patient must have either (1) hemipheric syptoms          (TI
       recovered stroke, stroke in evolution, loss of speech, confion, expressive or
       receptie languge problems, unateral lib weaes , or paralysis) or
       amaurosis fugax (unateral viion loss), or (2) non-hemispheric
                                                                         syptoms
       (dies;    diplopia; blured viion;  ata;     drop attacks; or bilateral lib
       paralis, weakess, or numbness). And:
       Imagig: For hemipheric     symptoms , angiography must     evidence;: 50%
       stenosis in the ipsilateral internal caotid artery or common caotid arery,
       and/or untable ulcerated lesion. For non-hemipheric syptoms , angiogrphy
       must evidence ;: 75% stenosis of the common or internal caotid arery.

ASYMOMATIC STENOSIS: Angiography must evidence ;: 80% stenosis of the
common or internal caotid arery.

STROKE: Stroke is defied as recovered stroke or stroke in evolution.

OTHR: None.
Mmnta
SYMOMATIC STENOSff:
      Symptoms: The patient must have amaurosis      fugax CV A, or    TI. And:
      Imagig: Areriogram     or digital subtraction angiography must indicate
      ulcerated plaque or ;: 50% stenosis   on the brai-   afected side.
ASYMOMATIC STENOSIS: Areriogram or DSA must indicate 80% stenosis , or
:: 70% stenosis with ulcerated plaque; or areriogr or DSA must demonstrate less
severe stenosis with cr or MRI evidence of silent inarct on brain- afected side , or
cholesterol emboli to the eye.

STROKE: Stroke is defied as CV A (ischemic) with signcat          functional recovery.


OTIR: None.


                                       C - 13

MISpi
SYNTOMATIC STENOSff:
       Symptoms: The patient must have stable, foc ischemic syptoms
       amaurosis fugax
                                                                               (T,
                           RIN, and previous atherothombotic stroke); stable, dise
       ischemic syptoms; evolvg, foca ischemic syptoms (stroke in evolution or
       crescendo    TI);
                      or acute stroke. And:

       Imagig: For stable, foc, ischemic syptoms areriography or duplex imagig
       must judgepromient plaque formation in the internal or common caotid
       artery appropriate to the syptoms; areriogrphy must judge a large ulcerative
       lesion in the internal or common caotid arery or areriography must judge an
       occluded internal caotid arery and promient plaque formation in the external
       caotid arery appropriate to the syptoms. For stable, die, ischemic
       syptoms, areriography or duplex must fid :; 50% diameter reduction in the
       common or internal caotid arery    bilateraly. For evolvg, foc, ischemic
      syptoms       areriography or duplex must judge promient formation in the
      internal or common carotid artery, or areriogrphy     must judge a large
      ulceratie lesion   in the internal or common caotid arery.   For acute stroke
      areriography or duplex imagig must fid promient plaque formation in the
      internal or common caotid artery and the procedure must be done shortly
      afer the onset of    stroke.

ASYMOMATIC STENOSIS: Areriography or duplex imagig must fid                     an
atherosclerotic lesion in the common or internal caotid arery producing:; 75%
diameter reduction, or areriography must fid a large multicentrc ulcerative
atherosclerotic lesion in the common or internal caotid arery.

STROKE: Stroke is defied as stroke      in evolution (which refers to the neurological
deficit manested hours or days afer the intial event) and acute stroke (which is a
stroke of onl several hours duration).

OTHR: A patient may undergo a carotid endaerectomy prior to or in conjunction
with another procedure for the purose of reducing    the rik of further   stroke.

Misur
SYMTOMATIC STENOSIS:

      Symptoms: The patient must have TI or CV A symptoms. And:

      Imagig: Radiographic evidence must show:; 50% carotid occlusion
      (diameter), or 70% reduction in the cross-sectional area, or ulcerated plaque
      or embolic phenomenon.



                                        C - 14

ASYMOMATIC STENOSIS:                       Asptomatic stenosis is not mentioned.

STROKE: Stroke is defied as a CV

OTHR: None.
MOI      d:
              JJg
SYMOMATIC STENOSIS:
       Symptoms: The patient must have classica                    TI    with hemiparesis,
       hemianesthesia, or      dyphasia lasting oe 24 hour;             or amaurosis   fugax; or
       unateral neurologica           deficits such as hemiparesis or hemianesthesia lasting 24
       hours to 7 days (RIN);           or stroke. And:
       Imagig: Angiography including DSA must                      conf an atherosclerotic lesion in
       the appropriate caotid artery.

ASYMOMATIC STENOSIS: Areriogram must fid                            90% carotid lesion , or an
                                                                        a
80% carotid lesion with signcant             ulceration; or brain CAT scan must fid a silent
inarct with a   90% caotid lesion, or an 80% caotid lesion with ulceration.
STROKE: Stroke is defied as a stroke lasting over one week with complete or
nearly complete recovery of neurological fuction.



OTHR: None.
Nebra
SYMOMATIC STENOSIS:
      Symptoms: The patient must have ipsilateral carotid terrtory syptoms
      includig contralateral weakess, clumsiness, paralis, contralateral numbness
      paresthesias includig loss of sensation , dysarthra, dysphasia, ipsilateral
      monocular blidness (amaurosis fugax), or contralateral homonymous
      hemianopia (defective vision affecting the right halves or left halves of the
      viual fields). And:
      Imagig: Angiogram or                                  75% unateral caotid
                                       duplex study demonstrates

      stenosis of the ipsilateral common or internal caotid        50% stenosis of
                                                                            artery,

      the common or internal caotid arery associated with contralateral internal
      caotid arery oclusion, or ulcerated atheromatous caotid bifrcation plaque
      with asociated    stenosis of  50%.

ASYMOMATIC STENOSIS:                      Asptomatic stenosis is not mentioned.



                                                     C - 15

STROKE: Stroke is not addressed.

OTHR: None.
New   Ham
SYMTOMATIC STENOSff:
       Symptoms: The patient must have                   clasica   TI   with hemiparesis,
       hemianesthesia, or dysphasia lasting oe 24 hour; or amaurosis fugax; or
       unatera neurologica deficits such as hemiparesis or hemianesthesia lasting 24
       hour to 7 days (RI); CV A; or syptomatic caotid bruit. And:
       Imagig: Areriogrphy must fid a 90% caotid stenosis, or an 80% caotid
       stenosis with sigIcat ulceration. Nonivasive caotid examation must
       confed by areriography.
ASYMOMATIC STENOSIS:                        Asptomatic stenosis is not mentioned.

STROKE: Stroke is defied as a cerebrovascular accident lasting over one week with
complete or parial recovery         of neurologica function.

OTH: None.
New   Jer
SYMTOMATIC STENOSIS:

       Symptoms: The patient must have classica                    TI
                                                        with hemiparesis
       hemianesthesia, or dysphasia; or amaurosis fugax or stroke. And:

       Imagig: Angiography including DSA must conf                        an atherosclerotic lesion in
       the appropriate caotid         arery
ASYMOMATIC          STENOSIS: Areriogram must reveal                       80% caotid stenosis
(complex ulcerations with oe 80% stenosis require referral).

STROKE: Stroke is defied as the patient havig complete or nearly complete
recovery of neurological function.

OTHR: None.




                                                       C - 16

New   Mer
SYMOMATIC STENOS
       Symptoms: The patient must have a mid or flucttig neurological deficit
       with correspondence of syptoms/sign to the hemipheric distribution of the
       obstructed caotid arery.               And:

       Imagig:    Angiography or DSA must demonstrate    70% stenosis of the
       internal caotid artery, caotid bulb, or common caotid arery (or 50% with a
       large ulcer).

ASYMOMATIC             STENOSIS: Angiography or DSA must demonstrate                              70%
stenosis of the internal caotid arery, caotid bulb                     , or common caotid arery.
STROKE: Stroke is not addressed.
OTHR: Unle other PRO criteria, New Mexico lits                              the conditions that   determe
when the caotid endaerectomy is " usualy not indicated. "                         Th surgica procedure is
not indicated when there is c: 50% caotid stenosis without ulcerated plaque , or when
a brai imagig procedure documents new,                         major inarction on the affected side.
New York

SYMOMATIC STENOSIS:
       Symptoms: The patient must have clasica TI with hemiparesis
       hemianesthesia, or dysphasia; or amaurosis fugax or stroke. And:

       Imagig: Angiography              includig          DSA must     conf an atherosclerotic lesion in
       the appropriate carotid arery.

ASYMOMATIC             STENOSIS: Areriogram must reveal                           80% caotid stenosis
(complex ulcerations with c: 80% stenosis require referr).

STROKE: Stroke is defined as the patient havig                         complete   or nearly complete
recovery of neurological function.

OTHR: None.




                                                          C - 17

Nor    Ca       d:   So
SYMOMATIC STENOSIS:
       Symptoms: The patient must have tranient speech                   dysfuncton, altered     body
       senstion, gait disturbance, dysahra; or amaurosis                 fugax or tranient
       hemiparesis; or stroke. And:

       Imagig: Angiography     must demonstrate caotid          75%; or ulcerated
                                                                   stenosis

       plaque refractory to conservative medica management; or caotid aneurym, or
       caotid dicton; or clica radiography must evidence a prior cerebral stroke
       in asation with an ipsilateral caotid          75%.
                                                   stenosis




ASYMOMATIC STEOSIS: Angiography                    must demonstrate caotid            stenosis

75%. In addition, the medica record must include a consenting opinon from a non­
afated second physician stating that the procedure is merited.
STROKE: Stroke is defied as a stroke with complete or nearly complete recovery of
neurologica function.

OTHR: None.
Nor Data
SYMOMATIC STENOSIS:
       Symptoms: The patient must have classica               TI
                                                          with hemiparesis
       hemianesthesia, or dysphasia lasting -c 24 hours; or amaurosis fugax; or
       uniateral neurologica   deficits such as hemiparesis or hemianesthesia lasting 24
       hours to 7 days (RIN); or stroke. And:

       Imagig: Angiography including DSA must                 conf an atherosclerotic lesion in
       the appropriate carotid artery.

ASYMTOMATIC STENOSIS: Areriogram must fid a 90% caotid lesion , or an
80% caotid lesion with signcant ulceration; or brai CAT scan must fid a silent
inarct with a 90% carotid lesion, or an 80% caotid lesion with ulceration.


STROKE: Stroke is defied as a stroke lasting over one week with complete or
nearly complete recovery of neurological function.

OTHR: None.




                                         C - 18

 Ohi
 SYMTOMATIC STENOSIS:

              Symptoms: The patient must have cerebrovascul inuffciency syptoms (Le.
              TI, amaurosis fugax sensory or motor monoparesis or hemiparesis) And:

              Imagig: Angiogr DSA, or duplex imgig                                      must demonstrate                 50%
              uniateral cross-sectional stenosis of the common or internal              50%                 caotid,

              bilteral cross-sectonal stenosis, or complete ipsilteral internal caotid
              occlusion asiated            50% contralateral cross-sectional stenosis (only the
                                           with

              contralateral lesion should be considered for surgery), or a large ulcerated
              plaque.

ASYMOMATIC STENOSIS: Angiogram, DSA, or duplex imagig                                                                 must
demonstrate   75% uniateral internal or common caotid cross-sectional stenosis                                                     , or

50% stenosis in the presence of a contralateral internal or common carotid occlusion.

STROKE: Stroke is defied                      as documented,              ipsilateral stroke.

OTHR: None.
Oklma
SYMOMATIC STENOSIS:
              Symptoms: The patient must have amaurosis fugax (monocular or partial
              blidness lastig .c 10 miutes); or hemipheric TI with the past 12 months;
              or hemipheric stroke. And:

              Imagig:   Angiography or DSA must document                                     50% stenosis and/or
              ulceration in an appropriate carotid artery (Le. ,                        the caotid supplying                 the
              cerebral hemiphere responsible for the symptoms). The percentage of stenosis
              must be specified.

ASYMOMATIC STENOSIS:                                 Angiography or DSA must document                                   75%
stenosis , or lumen .c 2 mm in the common or internal caotid                                          artery, or bilateral
stenosis with 
        75% occlusion on the operative side.

STROKE: Stroke is descn"bed                       as hemispheric stroke with                   documented good recovery
or with 
     minim al to modest deficit.

OTHR: None.



                                                                C - 19

                                       ,.



Orn
SYMTOMATIC STENOS

       Symptoms: The patient must have amaurosis fuga hemipheric
       stroke. Or:

                                                                           TI
       Imagig: The patient must have a hemodynamca signcat stenosis (50%
       diameter or 75% cross-sectional area), or an ulcerated plaque.

ASYMOMATIC STENOSIS: The patient must have a hemodynamcally signcat
stenosis (50% diameter or 75% cross-sectional area).

STROKE: Stroke is defied as hemispheric stroke with docmented good recovery
and with mial to modest deficit.

OTHR: None.
Penlvan
SYMOMATIC STENOSIS:
       Symptoms: The patient must have       TI(speech dysfucton, altered boy
       senstion, gait diturbance, dysarhra, loss of motor cordiation of upper or
       lower extremity, hemiparesis, or uniparesis); or amaurosis fugax if ipsilateral to
       lesion; or stroke. And: physical exaation must suggest a caotid bifrcation
       atheroma or embolition by a cervcal brut; neurological deficits; or
       oculopneumoplethysmography, doppler spectral frequency analysis , or duplex
       scag    evidencing a signcat     caotid lesion; ulcerated plaque; or ,. 70%
      stenosis. And:

      Imagig: Angiography alone , or angiography and doppler spectral scanng (or
      duplex   scag), must conf             70% diameter stenosis.

ASYMOMATIC STENOSIS: Angiography must                 indicate;:   70% bifurcation
stenosis and the patient has no major operative rik factors which contraidicate
surgery. If,. 70% stenosis on nonivasive studies, angiography must conf.


STROKE: Stroke is defied as a stroke with complete or nearly complete recovery of
neurologica function.

OTHR: None.




                                        C - 20

Pu Ri
SYMOMATIC STENOSIS:
       Symptoms: The patient must have clasica      TI   with hemiparesis, speech
       dysfuction, altered boy sensations, gait diturbance, hemianesthesia,
       dyphasia lastig'" 24 hour; or amurosis fugax or unateral neurologica
       deficits such as hemiparesis or hemianesthesia lastig 24 hour to 7 days
       (RIN); or stroke. Physica exaation must fid caotid bruit, neurological
       deficits or cholesterol plaques in the eye grounds. And:


       Imagig: Angiography must conf        an atherosclerotic lesion in the
      appropriate caotid   artery.

ASYMOMATIC STENOSIS: Areriogram must fid a 90% caotid lesion , or an
80% caotid lesion with signcant ulceration; or brai CAT sca must fid a silent
inarct with a 90% carotid lesion, or an 80% caotid lesion with ulceration.


STROKE: Stroke is defied as a stroke lasting over one week with complete or
nearly complete recovery of neurologica function.

OTHR: None.
Rh
SYMOMATIC STENOSIS:
      Symptoms: The patient must have foc   or neurological deficit (transient or
      permanent) compatible with caotid lesion. And:

      Imagig: Angiogram must demonstrte ulceration of the internal carotid arery
      compatible with the afected side whie on antiplatelet drugs. Brai cr sca
      must not reveal another lesion that could explai the symptoms.

ASYMOMATIC STENOSIS: Asymptomatic stenosis is not mentioned.
STROKE: Stroke is not addressed.

OTHR: None.
Sout Dakta
SYMOMATIC STENOSIS:
      Symptoms: The patient must have transient monocular blidness (amaurosis
                                                          TI
      fugax) with ipsilateral caotid stenosis or plaque; or (involvng the anterior


                                       C - 21

             circulation with face, ar, hand, or leg numbness or weakess; aphasia; or
             dysphasia) for c: 24- hours and traceable to the appropriate caotid, or
             stroke. The medica record must document neurologica deficit. And:

             Imagig: Areriogram    or DSA must show a hemodamcay signcat lesion
             defied as at least 60% diameter stenosis or 84% cross sectional area stenosis
             or ulceration. Hemipheric syptoms (tranient foc motor sensory or
             aphasias) require a   cr sc or MR.
ASYMOMATIC STENOSIS: Imagig must                         demonstrate stenosis              60% diameter
or 84% cross-sectional area, or a severe, deep         ulceratie plaque.

STROKE: Stroke is defied as a recent CV A traceable to the exta-cranial                        carotid
source where the patient made a fuctional           recovery but         would benefit from
protection agaist a       recurent event.   Additional stroke defitions include a               stroke in
progress or acute stroke with         6 hours followig caotid endarerectomy or trauma to
the neck.



OTIR: None.
Ten
SYMOMATIC STENOSIS:
            Symptoms: The patient must have classica             TI
                                                               with hemiparesis,
            hemianesthesia, or dysphasia lasting c: 24 hours; or amaurosis fugax (temporary
            loss of viion in one eye due to inufcient blood flow to the retina and lasting
            c: 10 miutes); or unateral neurological deficits such as hemiparesis or
            hemianesthesia lasting 24 hours to 7 days (RIN); or stroke. And:

            Imagig: Areriogram must fid              90% caotid         lesion, or a      80% caotid
            lesion with significat ulceration; or   brai sca must           find a 90% carotid lesion
            or an 80% caotid lesion with ulceration.
ASYMOMATIC STENOSIS: Imagig must                         fid a         90% caotid lesion , a 80%
caotid lesion with signcant ulceration, silent         inarct with a              90% carotid lesion, or
silent inarct with a       80% caotid lesion with ulceration.
STROKE: Stroke is defied as a stroke lasting over one week with complete or
nearly complete recovery of neurologica function.

OTIR: None.



                                              C - 22

Ter
SYMOMATIC STENOSIS:
      Symptoms: The patient must have defite        TI      or stroke   involvg the
      ipsilateral hemiphere or ipsilateral retial   circultion.   And:

      Imagig: Imagig must      fid :: 50% stenosis of the caotid        arery or an
      ulcerated plaque.


ASYMOMATIC STENOSIS: Imagig must fid signcat stenosis (:: 90%) in the
common or internal caotid arery, or stenosis :: 50% in the common or internal
caotid arery with the presence    of an ulcerated plaque.

STROKE: Stroke is defied as a non-disblig stroke involvg the ipsilateral
hemisphere or ipsilateral retial circulation.

OTIR: None.
Uta
SYMOMATIC STENOSIS:
      Symptoms: The patient must have clasica       TI   with hemiparesis
      hemianesthesia, or dysphasia lasting c: 24 hours; or amaurosis fugax (tranient
      loss of viion); or uniateral neurologica deficits such as hemiparesis or
      hemianesthesia lasting 24 hour to 7 days; or stroke. And:

      Imagig: Angiography, including four-vessel intra and extracranial direct
      arteriogram, must   conf the appropriate caotid lesion and lack of signcat
      dita obstructive disease.
ASYMOMATIC STENOSIS:              Asptomatic stenosis is not mentioned.

STROKE: Stroke is defied as a stroke lastig over one week with complete or
nearly complete recoery of neurologica function.

OTIR: None.
Vernt
SYMOMATIC STENOSIS:
      Symptoms: The patient must have clasica TI (i. , hemiparesis
      hemianesthesia, or dysphasia lasting c: 24 hours); or amaurosis fugax (transient



                                         C - 23
       monocular blidness); or  unateral neurologica          deficits such as hemiparesis or
       hemianesthesia lastig 24 hours to 7 days       (RI); or stroke. And:
       Imagig:   Angiography must fid          70% stenosis in the appropriate caotid
       arery.
ASYMOMATIC STENOSIS:                    cr sca must fid    silent inarct. Angiography must
fid at least 70% stenosis in appropriate caotid arery.
STROKE: Stroke is defied as a stroke          lastig over one   week with complete or
nealy complete recoery of neurologica         fuction.

OTHR: None.
Vug
SYMOMATIC STENOSIS:
      Symptoms: The patient must have focal or global cerebrovascular insuffciency
      syptoms or sigI including amaurosis fugax (temporar, reversible loss of
      viion), unateral tranient tinglg in libs           or face (paresthesias), paresis
      paralis diplopia (double viion), vertgo, TI foc neurologica deficit that
      resolves in oe one hour, stroke , sycope, gait diturbance
      speech dyfuction, or altered body senstions. And:
                                                                       dyhra, tranient
      Imagig: Angiography must evidence;: 50% plaque stenosis of common or
      internal caotid arery; or plaque necrosis or ulceration (e.g., actiely embolic);
      or a totay occluded internal caotid arery with;: 70% stenosis in the external
      caotid arery.
ASYMOMATIC STENOSIS: Angiography must evidence ;: 80% plaque stenosis.
STROKE: Stroke is defied as a completed stroke over 6 weeks old or fewer than 18
months old.

OTHR: None.
Vug Isla

SYMOMATIC STENOSIS:
      Symptoms: The patient must have cerebral vascular insuffciency syptoms.
      And:

      Imagig: Angiogram   must demonstrate: ;: 50% uniateral stenosis of the
      common or internal carotid, or ;: 50% bilateral stenosis, or internal carotid


                                             C - 24
      occlusion associated with;: 50% contralateral stenosis or an ulcerated
      atheromatous plaque.

ASYMTOMATIC STENOSIS: Angiogram must demonstrte;: 70% uniateral
internal or common caotid stenosis, or ;: 50% stenosis in the presence of a
contralateral internal or common caotid (occlusion), or total oclusion.

STROKE: Stroke is not addressed.

OTHR: None.
WlS
SYMOMATIC STENOSIS:
      Symptoms: The patient must have TI , or amaurosis fugax or RIN (e.g.
      tinglg libs ,  face paresthesias, paresis , or paralysis), or nonhemispheric
      syptoms (e.g. , vertgo, syncope). The syptoms must be consistent with the
      lesion location. And:

      Imagig: Angiogram must      conf caotid stenosis ;: 70% or an ulcerated
      atheromatous plaque.

ASYMOMATIC STENOSIS: Angiogr must demonstrte;: 70% stenosis; and
caotid duplex sca must document bloo velocty ;: 1.5 m.sec, or peak sytolic
frequency ;: 12 kiohert   or reversed   periorbita flow.


STROKE: A physician advior     must review the patient s stroke (CV A) hitory.

OTHR: None.




                                          C - 25

